INSPECTOR GENERAL’S SEMIANNUAL REPORT TO CONGRESS

         Appalachian Regional Commission
           April 1, 2007–September 30, 2007
                     A P PA L A C H I A N R E G I O N




                                                                                            NEW YORK
   WISCONSIN
                                      MICHIGAN


                                                                                  P E N N S Y LVA N I A




                                                                                                                                           RS W
    ILLINOIS              INDIANA                 OHIO




                                                                                                                                             EY
                                                                                                                                        JE NE
                                                                                                                                    E
                                                                                                                                WAR
                                                                                                   M
                                                                                                       A
                                                                                                           RY




                                                                                                                            ELA
                                                                                                                L
                                                                                                                    A
                                                                                                                        N




                                                                                                                                 D
                                                                    WEST VIRGINIA                                           D



                       KENTUCKY                                                       VIRGINIA
                                   HART




        TENNESSEE                                                           NORTH CAROLINA



                                                               SOUTH C AROLINA




M ISSISSIPPI                                     GEORGIA
                    ALABAMA

     Appalachia, as defined in the legislation, from which the Appalachian Regional Commission derives its
     authority, is a 200,000-square-mile region that follows the spine of the Appalachian Mountains from southern
     New York to northern Mississippi. It includes all of West Virginia and parts of twelve other states: Alabama,
     Georgia, Kentucky, Maryland, Mississippi, New York, North Carolina, Ohio, Pennsylvania, South Carolina,
     Tennessee, and Virginia.



                                                           3
                        A P PA L A C H I A N D E V E L O P M E N T
                        H I G H W AY S Y S T E M

                        September 30, 2007




                                                                                                                                                                                   NEW YORK                                              ALBANY


  WISCONSIN
                                                        MICHIGAN                                                                                                      JAMESTOWN
                                                                                                                                                                                                        ELMIRA   T   BINGHAMTON

                      CHICAGO
                                                                                                                                                            ERIE
                                                                                                                                                                          T                   U-1 U

                                                                                 TOLEDO                                                    CLEVELAND
                                                                                                                                                         P E N N S Y LVA N I A                              SCRANTON

                                                                                                                                                                                  WILLIAMSPORT

                                                                                                                                               AKRON                                                P
                                                                                                                                                                                  O-1       STATE COLLEGE
                                                                                                                                                                          ALTOONA       O          M
                                                                                                                                                                     M                                           HARRISBURG

    ILLINOIS                            INDIANA                                        OHIO                                                                                       M




                                                                                                                                                                                                                                          RS W
                                                                                                                                                               JOHNSTOWN
                                                                                                                                                PITTSBURGH




                                                                                                                                                                                                                                            EY
                                                                                                                                                                                        O




                                                                                                                                                                                                                                    JE NE
                                                                                                COLUMBUS
                                                INDIANAPOLIS




                                                                                                                                                                                                                                     E
                                                                                                                                           WHEELING                           N
                                                                                                                                                                                                  M
                                                                                 DAYTON




                                                                                                                                                                                                                                 WAR
                                                                                                                                                                                                  HAGERSTOWN
                                                                                                                                               MORGANTOWN                                             BALTIMORE
                                                                                                     C                        PARKERSBURG CLARKSBURG
                                                                                                                                                                     E         CUMBERLAND
                                                                                                                                                                                                        A
                                                                                                                                                                                                            RY




                                                                                                                                                                                                                             ELA
                                                                                                                C-1
                                                                                                                               D                D                     H
                                                                                                                                                                                      WASHINGTON, DC
                                                                                                                                                                                                                 L
                                                                                  CINCINNATI
                                                                                                                                                                                                                     A
                                                                                                                C                                                                                                        N
                                                                                                                                                           ELKINS
                                                                                                                                           WEST VIRGINIA




                                                                                                                                                                                                                                D
                                                                                                                                                                                                   ANNAPOLIS
                                                                                       D         B-1
                                                                                                                      B            CHARLESTON
                                                                                                                                                                                                                              D
                                                                         FRANKFORT
                                                            LOUISVILLE
                                                                                                            B
                                                                                                                          HUNTINGTON                L
                                                                                                                                       G
                                                                   LEXINGTON
                                                                                   I                  R                   B                                                                 RICHMOND

                                  KENTUCKY
                                                                                                     PIK                                       BECKLEY
                                                                                                           EV

                                                                                                                                                                         VIRGINIA
                                                                                                                ILL
                                                                                                 I                    E
                                                                                                                                                              ROANOKE
                                                     HART
                                                                                       LONDON
                                                                                                                                  B Q           Q
                                                                         J                  F
                                                                                                                              BRISTOL


                                                              J                     F                                         B                                               GREENSBORO
                         NASHVILLE                                                          S
                                                              COOKEVILLE                                                           B                                                    RALEIGH

             TENNESSEE                                                                 KNOXVILLE                                  ASHEVILLE
                                                                                                                                                        NORTH CAROLINA
   MEMPHIS                                                    J                         K                                                               CHARLOTTE
                                                                  CHATTANOOGA                          A
                                                                         K                                                             W
                                                                                                     GREENVILLE                            SPARTANBURG
                          V                 V
   V                                    HUNTSVILLE                           A
             TUPELO                                                               A-1
                                                                                                                              SOUTH C AROLINA
                              X                                                                                                                         COLUMBIA
                                                                             ATLANTA
                                  X-1    BIRMINGHAM




M ISSISSIPPI                                                                      GEORGIA
                                     MONTGOMERY


                           ALABAMA


             Open to Traffic                                                 Not Open to Traffic                                                                   Interstate System




                                                                                                       4
Appalachia, as defined in the legislation from which the Appalachian Regional Commission derives its
authority, is a 200,000-square-mile region that follows the spine of the Appalachian Mountains from
southern New York to northern Mississippi. It includes all of West Virginia and parts of 12 other states:
Alabama, Georgia, Kentucky, Maryland, Mississippi, New York, North Carolina, Ohio, Pennsylvania,
South Carolina, Tennessee, and Virginia.

Front cover: Photographs by Ann Hawthorne (top left) and Ken Murray.




                               Appalachian Regional Commission
                                    Office of Inspector General
                              1666 Connecticut Avenue, NW, Suite 700
                                   Washington, DC 20009-1068
